                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00307-126




     Combined Assessment Program 

             Review of the 

     Birmingham VA Medical Center 

         Birmingham, Alabama 





April 17, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL



                                            Glossary
              CAP             Combined Assessment Program
              CPR             Cardiopulmonary Resuscitation Committee
              EHR             electronic health record
              EOC             environment of care
              facility        Birmingham VA Medical Center
              FPPE            Focused Professional Practice Evaluation
              FY              fiscal year
              IAD             incontinence associated dermatitis
              MEC             Medical Executive Committee
              MH              mental health
              NA              not applicable
              NM              not met
              OIG             Office of Inspector General
              PRC             Peer Review Committee
              QM              quality management
              VA-TAMMCS       Vision-Analysis-Team-Aim-Map-Measure-Change-Sustain
              VHA             Veterans Health Administration
              VISN            Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                              CAP Review of the Birmingham VA Medical Center, Birmingham, AL



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     7

  Medication Management.........................................................................................                  10

  Coordination of Care ...............................................................................................            11

  Nurse Staffing .........................................................................................................        12

  Pressure Ulcer Prevention and Management .........................................................                              13


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              28

  F. Report Distribution .............................................................................................            29

  G. Endnotes ...........................................................................................................         30





VA OIG Office of Healthcare Inspections
                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
January 27, 2014.

Review Results: The review covered six activities. We made no recommendations
in the following two activities:

 Medication Management

 Coordination of Care

The facility’s reported accomplishments were the use of the Vision-Analysis-Team-Aim-
Map-Measure-Change-Sustain framework to reduce incontinence associated dermatitis
and a successful multidisciplinary workgroup for specialty care access.

Recommendations: We made recommendations in the following four activities:
Quality Management: Ensure the Medical Executive Committee documents discussion
of Peer Review Committee quarterly summary reports. Consistently complete Focused
Professional Practice Evaluations for newly hired licensed independent practitioners,
and consistently report results to the Medical Executive Committee.               Monitor
compliance with the new observation bed policy, and continue to gather data about
observation bed use. Perform continuing stay reviews on at least 75 percent of the
patients in acute beds. Require that the Cardiopulmonary Resuscitation Committee
reviews each code episode, that code reviews include screening for clinical issues prior
to code that may have contributed to the occurrence of the code, and that code data is
collected. Ensure the Surgical Work Group meets monthly and documents its review of
required monthly and quarterly performance data elements. Review the quality of
entries in the electronic health record at least quarterly. Ensure the quality control
policy for scanning includes how a scanned image is annotated to identify that it has
been scanned. Require that members from Medicine, Surgery, and Anesthesia
Services attend Transfusion Process Committee meetings and that the
blood/transfusions usage review process includes the results of proficiency testing.

Environment of Care: Ensure Infection Control Committee minutes reflect follow-up on
actions that were implemented to address identified problems.

Nurse Staffing: Monitor          the      staffing   methodology   that   was   implemented    in
November 2012.

Pressure Ulcer Prevention and Management: Monitor compliance with the revised
pressure ulcer policy as it pertains to prevention for outpatients. Ensure that the newly
established Interprofessional Pressure Ulcer Committee meets as required and that the



VA OIG Office of Healthcare Inspections                                                         i
                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL


committee provides oversight of the facility’s pressure ulcer prevention program.
Analyze pressure ulcer data, and report it to facility executive leadership. Accurately
document pressure ulcer location, stage, and risk scale score for all patients with
pressure ulcers. Consistently document pressure ulcer stage in initial skin assessments
for patients at risk or with pressure ulcers. Develop interprofessional treatment plans for
all hospitalized patients identified as being at risk for or with pressure ulcers. Ensure all
patients discharged with pressure ulcers have wound care follow-up plans and receive
dressing supplies prior to discharge. Provide and document pressure ulcer education
for patients at risk for and with pressure ulcers and/or their caregivers.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–27, for the full
text of the Directors’ comments.) We consider recommendation 9 closed. We will
follow up on the planned actions for the open recommendations until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                         ii
                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following six activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
February 27, 2014, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment



VA OIG Office of Healthcare Inspections                                                        1
                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL


Program Review of the Birmingham VA Medical Center, Birmingham, Alabama, Report
No. 11-01295-232, July 21, 2011). We made a repeat recommendation in QM.

During this review, we presented crime awareness briefings for 379 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
171 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Reducing IAD using the VA-TAMMCS Framework
The facility used the VA-TAMMCS framework to identify an effective process to
eliminate IAD. An interprofessional team was chartered to evaluate the state of
pressure ulcers at the facility. The team identified a pilot unit to observe the process for
cleaning patients and used feedback from frontline clinical staff and patients to evaluate
the current process for preventing IAD. The current process showed a wide variation in
incontinence care and products used. As a result of using VA-TAMMCS framework, the
team identified a superior and less costly process to prevent IAD and reduce pressure
ulcer development. This process included the use of the three-in-one disposable wipe
product, which was found to be cost effective and to provide the most effective means
of eliminating IAD. During the test cycle, the use of the three-in-one product reduced
the rate of patients with incontinence that developed IAD to nearly zero. These wipes
are now available for use on incontinent patients throughout the facility.

Specialty Care Access
In February 2013, the facility identified several specialty care areas that were unable to
provide appointments within a 14-day timeframe. A multidisciplinary work group was
created with the goal of improving overall access to specialty services. The group
reviewed access data trends and established short- and long-term plans for the
specialty areas identified as outliers. The short-term plans used non-VA care for
immediate access. The long-term plans included reviewing space utilization, analyzing
the cost benefit of staffing versus the use of fee services, realigning clerical support to
high volume areas, and streamlining consults. As a result, facility FY 2013 specialty
care access improved. For FY 2014, the multidisciplinary work group has refocused
their efforts to improve access to care for additional specialties.




VA OIG Office of Healthcare Inspections                                                        2
                                          CAP Review of the Birmingham VA Medical Center, Birmingham, AL



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

 NM                     Areas Reviewed                                    Findings
        There was a senior-level committee/group
        responsible for QM/performance
        improvement that met regularly.
         There was evidence that outlier data was
           acted upon.
         There was evidence that QM, patient
           safety, and systems redesign were
           integrated.
  X     The protected peer review process met         Twelve months of MEC meeting minutes
        selected requirements:                        reviewed:
         The PRC was chaired by the Chief of Staff    Quarterly summary reports were not
           and included membership by applicable         documented as discussed.
           service chiefs.
         Actions from individual peer reviews were
           completed and reported to the PRC.
         The PRC submitted quarterly summary
           reports to the MEC.
         Unusual findings or patterns were
           discussed at the MEC.
  X     FPPEs for newly hired licensed independent    Sixty-two profiles reviewed:
        practitioners were initiated and completed,    Ten FPPEs (16 percent) were not completed.
        and results were reported to the MEC.            This was a repeat finding from the previous
                                                         CAP review.
                                                       Of the 52 FPPEs completed, results of
                                                         20 (38 percent) were not reported to the
                                                         MEC.
 NA     Specific telemedicine services met selected
        requirements:
         Services were properly approved.
         Services were provided and/or received by
          appropriately privileged staff.
         Professional practice evaluation
          information was available for review.




VA OIG Office of Healthcare Inspections                                                                3
                                             CAP Review of the Birmingham VA Medical Center, Birmingham, AL


 NM             Areas Reviewed (continued)                                      Findings
  X     Observation bed use met selected                    The facility did not have an observation bed
        requirements:                                        policy until January 21, 2014.
         Local policy included necessary elements.         The facility did not begin gathering
         Data regarding appropriateness of                  observation bed use data until January 2014.
           observation bed usage was gathered.
         If conversions to acute admissions were
           consistently 30 percent or more,
           observation criteria and utilization were
           reassessed timely.
  X     Staff performed continuing stay reviews on at      Four quarters of continuing stay data reviewed:
        least 75 percent of patients in acute beds.         For all 4 quarters, less than 75 percent of
                                                              acute inpatients were reviewed.
  X     The process to review resuscitation events         Ten months of CPR Committee meeting minutes
        met selected requirements:                         reviewed:
         An interdisciplinary committee was                There was no evidence that the committee
           responsible for reviewing episodes of care         reviewed each episode.
           where resuscitation was attempted.               There was no evidence that code reviews
         Resuscitation event reviews included                included screening for clinical issues prior to
           screening for clinical issues prior to events      code that may have contributed to the
           that may have contributed to the                   occurrence of the code.
           occurrence of the code.                          There was no evidence that data was
         Data were collected that measured                   collected.
           performance in responding to events.
  X     The surgical review process met selected            The Surgical Work Group did not meet until
        requirements:                                        October 2013. As a result, there was no
         An interdisciplinary committee with                evidence that required monthly and quarterly
           appropriate leadership and clinical               performance data elements, including local
           membership met monthly to review                  performance data and National Surgical
           surgical processes and outcomes.                  Office reports, were reviewed.
         All surgical deaths were reviewed.
         Additional data elements were routinely
           reviewed.
        Critical incidents reporting processes were
        appropriate.
  X     The process to review the quality of entries in    Ten months of Medical Record Committee
        the EHR met selected requirements:                 meeting minutes reviewed:
         A committee was responsible to review             There was no evidence that the quality of
           EHR quality.                                      entries in the EHR was reviewed.
         Data were collected and analyzed at least
           quarterly.
         Reviews included data from most services
           and program areas.
  X     The policy for scanning non-VA care                 The scanning policy did not include how a
        documents met selected requirements.                 scanned image is annotated to identify that it
                                                             has been scanned.




VA OIG Office of Healthcare Inspections                                                                       4
                                              CAP Review of the Birmingham VA Medical Center, Birmingham, AL


 NM             Areas Reviewed (continued)                                     Findings
  X     The process to review blood/transfusions          Nine months of Transfusion Process Committee
        usage met selected requirements:                  meeting minutes reviewed:
         A committee with appropriate clinical            Clinical representatives from Medicine,
           membership met at least quarterly to              Surgery, and Anesthesia Services did not
           review blood/transfusions usage.                  attend the meetings.
         Additional data elements were routinely          The review process did not include the results
           reviewed.                                         of proficiency testing.
        Overall, if significant issues were identified,
        actions were taken and evaluated for
        effectiveness.
        Overall, senior managers were involved in
        performance improvement over the past
        12 months.
        Overall, the facility had a comprehensive,
        effective QM/performance improvement
        program over the past 12 months.
        The facility met any additional elements
        required by VHA or local policy.

Recommendations

1.   We recommended that the MEC document discussion of PRC quarterly summary reports.

2. We recommended that processes be strengthened to ensure that FPPEs for newly hired
licensed independent practitioners are consistently completed and that results are consistently
reported to the MEC.

3.   We recommended that the facility monitor compliance with the new observation bed policy.

4. We recommended that processes be strengthened to ensure that data about observation
bed use continues to be gathered.

5. We recommended that processes be strengthened to ensure that continuing stay reviews
are performed on at least 75 percent of the patients in acute beds.

6. We recommended that processes be strengthened to ensure that the CPR Committee
reviews each code episode, that code reviews include screening for clinical issues prior to the
code that may have contributed to the occurrence of the code, and that code data is collected.

7. We recommended that the Surgical Work Group meet monthly and document its review of
required monthly and quarterly performance data elements, including local performance data
and National Surgical Office reports.

8. We recommended that processes be strengthened to ensure that the quality of entries in
the EHR is reviewed at least quarterly.

9. We recommended that the quality control policy for scanning include how a scanned image
is annotated to identify that it has been scanned.


VA OIG Office of Healthcare Inspections                                                                   5
                                          CAP Review of the Birmingham VA Medical Center, Birmingham, AL


10. We recommended that processes be strengthened to ensure that members from Medicine,
Surgery, and Anesthesia Services attend Transfusion Process Committee meetings and that the
blood/transfusions usage review process includes the results of proficiency testing.




VA OIG Office of Healthcare Inspections                                                               6
                                          CAP Review of the Birmingham VA Medical Center, Birmingham, AL


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected five inpatient care areas (two medical/surgical care units, an intensive care unit,
the blind rehabilitation unit, and the palliative care unit) and three outpatient areas (the
emergency department, primary care, and the oncology clinic). Due to inclement weather, we
were unable to inspect the radiology unit. Additionally, we reviewed relevant documents,
conversed with key employees and managers, and reviewed nine radiology employee training
records. The table below shows the areas reviewed for this topic. The area marked as NM did
not meet applicable requirements and needed improvement. Any items that did not apply to this
facility are marked NA.

NM            Areas Reviewed for General EOC                               Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
 X     Infection Prevention/Control Committee           Three quarters of Infection Control Committee
       minutes documented discussion of identified      meeting minutes reviewed:
       problem areas and follow-up on implemented        Minutes did not reflect follow-up on actions
       actions and included analysis of surveillance      that were implemented to address identified
       activities and data.                               problems.
       Fire safety requirements were met.                
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,    
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.




VA OIG Office of Healthcare Inspections                                                                  7
                                             CAP Review of the Birmingham VA Medical Center, Birmingham, AL


NM      Areas Reviewed for Radiology (continued)                             Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
 NA    Environmental safety requirements in x-ray
       and fluoroscopy were met.
 NA    Infection prevention requirements in x-ray and
       fluoroscopy were met.
 NA    Medication safety and security requirements
       in x-ray and fluoroscopy were met.
 NA    Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
 NA    MH EOC inspections were conducted every
       6 months.
 NA    Corrective actions were taken for                    
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
 NA    MH unit staff, Multidisciplinary Safety              
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
 NA    The locked MH unit(s) was/were in
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.


VA OIG Office of Healthcare Inspections                                                                  8
                                          CAP Review of the Birmingham VA Medical Center, Birmingham, AL


NM      Areas Reviewed for Acute MH (continued)                           Findings
NA     The facility complied with any additional       
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendation

11. We recommended that processes be strengthened to ensure that Infection Control
Committee minutes reflect follow-up on actions that were implemented to address identified
problems.




VA OIG Office of Healthcare Inspections                                                               9
                                            CAP Review of the Birmingham VA Medical Center, Birmingham, AL


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed                  with key managers and employees.
Additionally, we reviewed the EHRs of 33 randomly            selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the       areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The       facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                      Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                10
                                           CAP Review of the Birmingham VA Medical Center, Birmingham, AL




Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 34 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                     Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                               11
                                            CAP Review of the Birmingham VA Medical Center, Birmingham, AL


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing an acute medical/surgical unit.5

We reviewed facility and unit-based expert panel documents and 21 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 1 randomly selected unit—acute medical/surgical unit 4 Main—for 50 randomly selected
days between October 1, 2012, and September 30, 2013. The table below shows the areas
reviewed for this topic. The area marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                      Findings
 X     The facility either implemented or reassessed      Initial implementation was not completed until
       a nurse staffing methodology within the             November 27, 2012.
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

12. We recommended that nursing managers continue to monitor the staffing methodology that
was implemented in November 2012.




VA OIG Office of Healthcare Inspections                                                                12
                                           CAP Review of the Birmingham VA Medical Center, Birmingham, AL


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 25 EHRs of patients with pressure ulcers (8 patients with
hospital-acquired pressure ulcers, 7 patients with community-acquired pressure ulcers, and
10 patients with pressure ulcers at the time of our onsite visit), and 10 employee training
records. Due to inclement weather, we were unable to conduct the physical inspection portion
of the review. The table below shows the areas reviewed for this topic. The areas marked as
NM did not meet applicable requirements and needed improvement. Any items that did not
apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
 X     The facility had a pressure ulcer prevention     Facility pressure ulcer prevention policy
       policy, and it addressed prevention for all      reviewed:
       inpatient areas and for outpatient care.          The policy did not address prevention for
                                                           outpatients until December 2013.
 X     The facility had an interprofessional pressure    The facility did not establish an
       ulcer committee, and the membership                 interprofessional pressure ulcer committee
       included a certified wound care specialist.         until January 2014.
 X     Pressure ulcer data was analyzed and              Pressure ulcer data was not analyzed or
       reported to facility executive leadership.          reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer
 X     Staff were generally consistent in                In 9 of the 25 EHRs, staff did not consistently
       documenting location, stage, risk scale score,     document the location, stage, and/or risk
       and date acquired.                                 scale score.
 X     Required activities were performed for            In 4 of the 25 EHRs, the complete initial skin
       patients determined to be at risk for pressure     assessment did not include documentation of
       ulcers and for patients with pressure ulcers.      pressure ulcer stage.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
 X     For patients at risk for and with pressure        Three of the 25 EHRs contained no
       ulcers, interprofessional treatment plans were     documentation that interprofessional
       developed, interventions were recommended,         treatment plans were developed.
       and EHR documentation reflected that
       interventions were provided.
 X     If the patient’s pressure ulcer was not healed    Two of the applicable five EHRs did not
       at discharge, a wound care follow-up plan was      contain a wound care follow-up plan at
       documented, and the patient was provided           discharge.
       appropriate dressing supplies.                    Three of the applicable four EHRs did not
                                                          contain evidence that patients received
                                                          dressing supplies prior to discharge.




VA OIG Office of Healthcare Inspections                                                                 13
                                           CAP Review of the Birmingham VA Medical Center, Birmingham, AL


NM             Areas Reviewed (continued)                                    Findings
 X     The facility defined requirements for patient    Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and      education requirements reviewed:
       education on pressure ulcer prevention and        For 6 of the applicable 15 patients at risk for
       development was provided to those at risk for      or with a pressure ulcer, EHRs did not contain
       and with pressure ulcers and/or their              evidence that education was provided.
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
 NA    The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

13. We recommended that the facility monitor compliance with the revised pressure ulcer policy
as it pertains to prevention for outpatients.

14. We recommended that the newly established Interprofessional Pressure Ulcer Committee
meet as required and that the committee provide oversight of the facility’s pressure ulcer
prevention program.

15. We recommended that processes be strengthened to ensure that pressure ulcer data is
analyzed and that program data is reported to facility executive leadership.

16. We recommended that processes be strengthened to ensure that acute care staff
accurately document pressure ulcer location, stage, and risk scale score for all patients with
pressure ulcers and that compliance be monitored.

17. We recommended that processes be strengthened to ensure that acute care staff
consistently document pressure ulcer stage in initial skin assessments for patients at risk or with
pressure ulcers and that compliance be monitored.

18. We recommended that processes be strengthened to ensure that acute care staff develop
interprofessional treatment plans for all hospitalized patients identified as being at risk for or with
pressure ulcers and that compliance be monitored.

19. We recommended that processes be strengthened to ensure that all patients discharged
with pressure ulcers have wound care follow-up plans and receive dressing supplies prior to
being discharged and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                14
                                          CAP Review of the Birmingham VA Medical Center, Birmingham, AL


20. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                              15
                                           CAP Review of the Birmingham VA Medical Center, Birmingham, AL
                                                                                              Appendix A


             Facility Profile (Birmingham/521) FY 2014 through
                                  March 2014a
Type of Organization                                                              Tertiary
Complexity Level                                                                  1a-High complexity
Affiliated/Non-Affiliated                                                         Affiliated
Total Medical Care Budget in Millions                                             $378.7
Number of:
    Unique Patients                                                              46,877
    Outpatient Visits                                                            281,554
    Unique Employeesb                                                            1,950
Type and Number of Operating Beds (January 2014):
    Hospital                                                                     139
    Community Living Center                                                      NA
    MH                                                                           NA
Average Daily Census (February 2014):
    Hospital                                                                     97
    Community Living Center                                                      NA
    MH                                                                           NA
Number of Community Based Outpatient Clinics                                      9
Location(s)/Station Number(s)                                                     Huntsville/521GA
                                                                                  Decatur (Madison)/521GB
                                                                                  Florence/521GC
                                                                                  Rainbow City/521GD
                                                                                  Anniston (Oxford)/521GE
                                                                                  Jasper/521GF
                                                                                  Bessemer/521GG
                                                                                  Childersburg/521GH
                                                                                  Guntersville/521GI
VISN Number                                                                       7




a
    All data is for FY 2014 through March 2014 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  16
                                                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL
                                                                                                                      Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                       17
                                                        CAP Review of the Birmingham VA Medical Center, Birmingham, AL



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                            18
                                                                                                      CAP Review of the Birmingham VA Medical Center, Birmingham, AL


                                                                         Metric Definitions
 Measure                       Definition                                                                             Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)      A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                             A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                   A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                            A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)         A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                          A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                      A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                 A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                   A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                         A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                   A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)      A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)               A higher value is better than a lower value
 PSI                           Patient safety indicator                                                               A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                       A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                         A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                   A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                  A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction              A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                 A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                    A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                         A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                             19
                                     CAP Review of the Birmingham VA Medical Center, Birmingham, AL
                                                                                        Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       April 1, 2014

          From:        Director, VA Southeast Network (10N7)

       Subject:        CAP Review of the Birmingham VA Medical Center,
                       Birmingham, AL

             To:       Director, Atlanta Office of Healthcare Inspections (54AT)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed the OIG CAP Report and Birmingham’s submitted
          actions plans. VISN 7 leadership will provide required support as
          needed.

       2. If y	 ou have questions or need additional information, please
          contact Robin Hindsman, VISN Quality Management Officer at
          (678) 924-5723.


                 (original signed by:)
           Charles E. Sepich, FACHE




VA OIG Office of Healthcare Inspections                                                         20
                                      CAP Review of the Birmingham VA Medical Center, Birmingham, AL
                                                                                         Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:        March 31, 2014

          From:         Director, Birmingham VA Medical Center (521/00)

       Subject:         CAP Review of the Birmingham VA Medical Center,
                        Birmingham, AL

             To:        Director, VA Southeast Network (10N7)

       1. The Birmingham VA Medical Center has reviewed the CAP Report and
          concurs with the recommendations. Corrective actions are underway
          with identified target completion dates.

       2. If you have questions or need additional information, please contact
          my office at (205) 933-4515.


                   (original signed by:)
           Thomas C. Smith, III, FACHE




VA OIG Office of Healthcare Inspections                                                          21
                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the MEC document discussion of PRC
quarterly summary reports.

Concur

Target date for completion: September 30, 2014

Facility response: The Risk Manager will report quarterly Peer Review Reports to Health
System Council. Reports will be documented in Health System Council (Medical
Executive Committee).

Recommendation 2. We recommended that processes be strengthened to ensure that
FPPEs for newly hired licensed independent practitioners are consistently completed
and that results are consistently reported to the MEC.

Concur

Target date for completion: September 30, 2014

Facility response: The Chief of Staff and Professional Standards Board will ensure the
Service Chiefs submit FPPEs for newly hired independent practitioners which are then
consistently reported to Health System Council. FPPEs not reported to Medical
Executive Board will be referred to Chief of Staff for further action.

Recommendation 3. We recommended that the facility monitor compliance with the
new observation bed policy.

Concur

Target date for completion: September 30, 2014

Facility response: The Chief of Business Management Service will monitor compliance
with Observation Policy. The information will be tracked by the Patient Flow Committee
and reported monthly to Health System Council. The Health Systems Council will
monitor compliance of observation admissions.




VA OIG Office of Healthcare Inspections                                                       22
                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL


Recommendation 4. We recommended that processes be strengthened to ensure that
data about observation bed use continues to be gathered.

Concur

Target date for completion: September 30, 2014

Facility response: The Chief of Business Management Service will ensure data
collection for observation beds. The Patient Flow Committee will analyze, trend and
report information to Health System Council monthly.

Recommendation 5. We recommended that processes be strengthened to ensure that
continuing stay reviews are performed on at least 75 percent of the patients in acute
beds.

Concur

Target date for completion: September 30, 2014

Facility response: Business Management Service has been authorized for 3 additional
UM FTE. Expected target date for all staff to be on duty is June 30, 2014. The Chief of
the Business Management Service will ensure that 75 percent of patient admitted are
reviewed according to Inter Qual Criteria. The percentage of reviews completed will be
monitored by Patient Flow Committee. The Patient Flow Committee will report
information monthly to Health System Council for review and recommendations.

Recommendation 6. We recommended that processes be strengthened to ensure that
the CPR Committee reviews each code episode, that code reviews include screening
for clinical issues prior to code that may have contributed to the occurrence of the code,
and that code data is collected.

Concur

Target date for completion: September 30, 2014

Facility response: The Cardio Pulmonary Resuscitation Committee will review each
code episode for clinical issues that may have contributed to the code. The CPR
Committee will track and trend events and report clinical issues to the Quality Value
Council and Peer Review as indicated.

Recommendation 7. We recommended that the Surgical Work Group meet monthly
and document its review of required monthly and quarterly performance data elements,
including local performance data and National Surgical Office reports.

Concur

Target date for completion: September 30, 2014




VA OIG Office of Healthcare Inspections                                                       23
                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL


Facility response: The Surgical Work Group will continue to meet monthly and
document review of required monthly and quarterly performance data elements,
including local performance data and National Surgical Office Reports. The information
will be reported to Quality Value Council for review and approval of performance
improvement actions.

Recommendation 8. We recommended that processes be strengthened to ensure that
the quality of entries in the EHR is reviewed at least quarterly.

Concur

Target date for completion: September 30, 2014

Facility response: The Medical Record Committee will work with Clinical Services to
ensure quality reviews are completed on clinic entries into the electronic health record.
The data collected will be reviewed by Medical Record Committee and referred to
Health System Council for approval.

Recommendation 9. We recommended that the quality control policy for scanning
include how a scanned image is annotated to identify that it has been scanned.

Concur

Target date for completion: Complete

Facility response: The Medical Center Memorandum 136-04 has been updated to
describe how scanned images are annotated to identify that it has been scanned.

Recommendation 10. We recommended that processes be strengthened to ensure
that members from Medicine, Surgery, and Anesthesia Services attend Transfusion
Process Committee meetings and that the blood/transfusions usage review process
includes the results of proficiency testing.

Concur

Target date for completion: September 30, 2014

Facility response: Members from Medicine, Surgery, and Anesthesia Service will be
required to attend the Transfusion Process Committee meetings. Attendance will be
tracked and reviewed by Health System Council for compliance. The Transfusion
Committee will ensure that the blood/transfusions usage review process include the
results of proficiency testing and report the findings to Health System Council to be
tracked for compliance.




VA OIG Office of Healthcare Inspections                                                       24
                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL


Recommendation 11. We recommended that processes be strengthened to ensure
that Infection Control Committee minutes reflect follow-up on actions that were
implemented to address identified problems.

Concur

Target date for completion: September 30, 2014

Facility response: The Infection Control Nurse will ensure that the Infection Control
Committee minutes reflect follow-up on actions that were implemented to address
identified problems. The Infection Control Minutes will be reviewed by the Quality Value
Council for completion of identified problems.

Recommendation 12. We recommended that nursing managers continue to monitor
the staffing methodology that was implemented in November 2012.

Concur

Target date for completion: September 30, 2014

Facility response: The Associate Director of Patient Care Services will ensure that the
staffing methodology is continued. The staffing report will be provided to Quality Value
Council to monitor compliance.

Recommendation 13. We recommended that the facility monitor compliance with the
revised pressure ulcer policy as it pertains to prevention for outpatients.

Concur

Target date for completion: September 30, 2014

Facility response: The Associate Director of Patient Care Services will ensure monitored
compliance with the revised pressure ulcer policy as it pertains to prevention for
outpatients. Monthly pressure ulcer reports will be provided to Quality Value Council to
monitor compliance.

Recommendation 14. We recommended that the newly established Interprofessional
Pressure Ulcer Committee meet as required and that the committee provide oversight of
the facility’s pressure ulcer prevention program.

Concur

Target date for completion: September 30, 2014

Facility response: The Associate Director of Nursing will ensure the newly established
Interprofessional Pressure Ulcer Committee meet as required and that the committee
provide oversight of the facility’s pressure ulcer prevention program. Monthly pressure
ulcer reports will be provided to Quality Value Council to monitor compliance.



VA OIG Office of Healthcare Inspections                                                       25
                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL


Recommendation 15. We recommended that processes be strengthened to ensure
that pressure ulcer data is analyzed and that program data is reported to facility
executive leadership.

Concur

Target date for completion: September 30, 2014

Facility response: The Associate Director of Patient Care Services will ensure that
pressure ulcer data is analyzed and that the program data is reported to Quality Value
Council. Monthly pressure ulcer reports will be provided to Quality Value Council to
review and then reported to Facility Leadership Board.

Recommendation 16. We recommended that processes be strengthened to ensure
that acute care staff accurately document pressure ulcer location, stage, and risk scale
score for all patients with pressure ulcers and that compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: The Associate Director of Patient Care Services will ensure that acute
care staff accurately document pressure ulcer location, stage, and risk scale score for
all patients with pressure ulcers and that compliance be monitored. The action plan for
staff to document pressure ulcer information will be reported and monitored monthly by
Quality Value Council for compliance.

Recommendation 17. We recommended that processes be strengthened to ensure
that acute care staff consistently document pressure ulcer stage in initial skin
assessments for patients at risk or with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: September 30, 2014

Facility response: The Associate Director of Patient Care Services will ensure that acute
care staff accurately document pressure ulcer stage in initial skin assessments for
patients at risk or with pressure ulcers and that compliance be monitored. The action
plan for staff to document pressure ulcer information will be reported and monitored
monthly by Quality Value Council.




VA OIG Office of Healthcare Inspections                                                       26
                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL


Recommendation 18. We recommended that processes be strengthened to ensure
that acute care staff develop interprofessional treatment plans for all hospitalized
patients identified as being at risk for or with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: September 30, 2014

Facility response: The Associate Director of Patient Care Services will ensure that acute
care staff develops Interprofessional treatment plans for all hospitalized patients
identified as being at risk for or with pressure ulcers and that compliance be monitored.
The action plan will be reported and monitored monthly by Quality Value Council for
compliance.

Recommendation 19. We recommended that processes be strengthened to ensure
that all patients discharged with pressure ulcers have wound care follow-up plans and
receive dressing supplies prior to being discharged and that compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: The Associate Director of Nursing will ensure that all patients
discharged with pressure ulcers have wound care follow-up plans and receive dressing
supplies prior to being discharged and that compliance be monitored. The action plan
will be reported and monitored monthly by Quality Value Council for compliance.

Recommendation 20. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: The Associate Director of Nursing will ensure that acute care staff
provide and document pressure ulcer education for patients at risk for and with pressure
ulcers and/or their caregivers and that compliance be monitored. The action plan will be
reported and monitored monthly by Quality Value Council for compliance.




VA OIG Office of Healthcare Inspections                                                       27
                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Toni Woodard, BS, Team Leader
Contributors            Victoria Coates, LICSW, MBA
                        Sheyla Desir, RN, MSN,
                        Lesa Gann, RN, LCSW
                        Sandra Khan, RN
                        Joanne Wasko, LCSW
                        Ray White, Special Agent, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       28
                                   CAP Review of the Birmingham VA Medical Center, Birmingham, AL
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Southeast Network (10N7)
Director, Birmingham VA Medical Center (521/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jeff Sessions, Richard C. Shelby
U.S. House of Representatives: Spencer Bachus, Terri A. Sewell


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       29
                                               CAP Review of the Birmingham VA Medical Center, Birmingham, AL
                                                                                                  Appendix G

                                                     Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
    Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
   References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
   References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
    July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                             30
                                               CAP Review of the Birmingham VA Medical Center, Birmingham, AL



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
    November 2012.




VA OIG Office of Healthcare Inspections                                                                   31
